                                                                                       I-.S. Department of Homeland
                                                                                       Security
                                                                                       3003 Chamblee-Tucker Road
                                                                                       Atlanta, Georgia 30341




                                                       April 12,2005

    MEMORANDUM


    TO:                              Joseph F. Picciano


    FROM:
                                     Field Office Director

    SUBJECT:                         V.I. Department of Housing, Parks and Recreation
                                     FEMA Disaster No. 1067-DR-VI
                                     Audit Report No. DA-15 -05



    The Office of Inspector General audited public assistance funds awarded to the V.I.
    Department of Housing, Parks and Recreation (Department). The objective of the audit was
    to determine whether the Department accounted for and expended FEMA funds according to
    federal regulations and FEMA guidelines.

    The Department received an award of $3,965,154 from the V.I. Office of Management and
    Budget, a FEMA grantee, for debris removal, emergency protective measures, and repairs to
    facilities damaged as a result of Hurricane Marilyn in September 1995. The award provided
    90 percent FEMA funding for 7 large projects and 62 small projects1. We limited our audit
    to the $3,540,322 awarded under the 7 large projects. The audit covered the period
    September 1995 to January 2003. During this period, the Department claimed $3,520,148
    and received $3,142,973 of FEMA funds under the 7 large projects.

    We performed the audit under the authority of the Inspector General Act of 1978, as
    amended, and according to generally accepted government auditing standards. The audit
    included tests of the Department's accounting records, a judgmental sample of expenditures,
    and other auditing procedures considered necessary under the circumstances.

    We determined that the Department used and accounted for FEMA funds according to
    federal regulations and FEMA guidelines. On March 1,2005, we informed Department

' Federal regulations in effect at the time of the disaster set the large project threshold at $43,600.
officials of the audit results. Since this report contains no recommendations, a response is
not required.

Should you have any questions, or require additional information concerning this report,
please contact me at (770) 220-5242.
